Louisiana
Capital
Assistance
Center

May 24, 2021

A Non-Profit Law Office
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
RE: State of Louisiana v. Tazin Ardell Hill, 20-1587
Dear Mr. Harris,

The State of Louisiana Department of Justice recently filed a petition for a writ of certiorari
in this matter. The brief in opposition is currently due June 9, 2021. Given the complexity of issues
involved, Mr. Hill requests an extension of thirty days in which to file his brief in opposition. The
new due date would be July 9, 2021.
Sincerely,
/s/ Richard Bourke
Richard Bourke
Director

cc.

Elizabeth Murrill, Louisiana DOJ, 1885 N. Third Street, Baton Rouge, LA 70802
Tyler R. Green, Consovoy Mccarthy PLLC, 222 S. Main Street, Suite 500, Salt Lake
City, UT 84111
Donald D. Landry, District Attorney, 800 South Buchanan St.

LOUISIANA CAPITAL ASSISTANCE CENTER
636 BARONNE STREET • NEW ORLEANS • LOUISIANA • 70113
PHONE: + 1 (504) 558-9867 • FAX: + 1 (504) 558-0378

